Supreme Court Litigation Clinic

April 23, 2021

Crown Quadrangle
559 Nathan Abbott Way
Stanford, CA 94305-8610
Tel 650 724.1900
Fax 650 723.4426
sup.ct.clinic@law.stanford.edu

Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Darrell Hemphill v. New York, No. 20-637

Dear Mr. Harris,
On April 19, 2021, the Court granted certiorari in this case. We have
conferred with counsel for respondent, Noah Chamoy, and the parties jointly
propose the following briefing schedule: Petitioner’s opening brief and the joint
appendix shall be due on June 22, 2021, and respondent’s brief shall be due on
August 10, 2021. Under this schedule, petitioner’s reply brief will be due on
September 9, 2021.
This schedule represents mutual extensions of 19 days for both sides. The
extensions are necessary because of the heavy press of business for both lawyers,
as well as ongoing challenges related to their virtual work environments during
the ongoing pandemic.
Thank you very much for your consideration.
Very truly yours,

Jeffrey L. Fisher

Counsel for Petitioner
cc:

All Counsel

Community Law ♣ Criminal Defense ♣ Environmental Law ♣ Immigrants' Rights
International Human Rights and Conflict Resolution ♣ Juelsgaard Intellectual Property and Innovation
Organizations and Transactions ♣ Religious Liberty ♣ Supreme Court Litigation ♣ Youth and Education Law Project

